BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief in 20-534, All Saints' Episcopal
Church (Fort Worth) v. The Episcopal Diocese of Fort
Worth, et al., was sent via Next Day Service to the U.S.
Supreme Court, and via e-mail service to the following
parties listed below, this 6th day of January, 2021:
Aaron Michael Streett
Baker Botts, L.L.P.
910 Louisiana Street
Houston, TX 77002
(713) 229-1855
aaron.streett@bakerbotts.com
Counsel for Respondents
Paul D. Clement
Counsel of Record
Erin E. Murphy
Andrew C. Lawrence
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Charles Baruch
Johnston Tobey Baruch PC
12377 Merit Dr., Suite 877
Dallas, TX 75251
(214) 741-6260
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

(800) 890.5001

Suite l 02

· 1300 I Street, NW, Suite 400E

Franklin Square

www.beckergallagher.com

Cincinnati, Ohio 45249

· Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 6, 2021.

Donna J . W
Becker Gallagher Le gal Publishing, In c.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

